          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




          IMPLEMENTATION REVIEW OF CORRECTIVE ACTION PLAN
          Robert A. Young Federal Building
          Recovery Act Construction Project
          Report Number A090172/P/R/12003
          March 8, 2012

          Assignment Number A130102
          July 31, 2013




A130102
                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration

 DATE:             July 31, 2013
 TO:               Dorothy Robyn
                   Commissioner, Public Buildings Service (P)

 FROM:             Susan P. Hall
                   Audit Manager, Real Property Audit Office (JA-R)

 SUBJECT:          Implementation Review of Corrective Action Plan
                   Robert A. Young Federal Building Recovery Act Construction Project
                   Report Number A090172/P/R/12003
                   Assignment Number A130102

This report presents the results of our implementation review of the Robert A. Young
Federal Building Recovery Act Construction Project.

We have completed an implementation review of the management actions taken in
response to the recommendations contained in the subject audit report (See Appendix
A). The objective of our review was to determine whether the Commissioner of the
Public Buildings Service (PBS) has taken the corrective actions as outlined in the Action
Plan for Recovery Act Report – Robert A. Young Federal Building Envelope
Improvement Construction Project, Audit of PBS’s Major Construction and
Modernization Projects Funded by the American Recovery and Reinvestment Act of
2009.

To accomplish our objective we:

   •     Examined documentation submitted by PBS supporting accomplishment of the
         action plan steps;
   •     Performed limited testing of the implementation of the guidance contained in
         these supporting documents; and
   •     Met and corresponded with PBS personnel.

Our implementation review found that the PBS Commissioner addressed the audit
recommendations in the corrective action plan, dated May 3, 2012.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:




A130102                                 1
Susan P. Hall         Audit Manager     Susan.Hall@gsaig.gov           202.501.2073
Felicia Silver        Auditor-In-Charge Felicia.Silver@gsaig.gov       202.501.1360

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this review.

Background

On March 8, 2012, we issued an audit report to the PBS Commissioner entitled,
Recovery Act Report – Robert A. Young Federal Building Envelope Improvement
Construction Project, Audit of PBS’s Major Construction and Modernization Projects
Funded by the American Recovery and Reinvestment Act of 2009. The American
Recovery and Reinvestment Act of 2009 (Recovery Act) provided the General Services
Administration with $5.55 billion to convert federal buildings into High-Performance
Green Buildings, as well as to construct federal buildings, courthouses, and land ports
of entry.

On July 29, 2009, PBS awarded a Construction Manager as Constructor task order for
envelope improvements to the Robert A. Young Federal Building in St. Louis, Missouri.
The base task order was awarded under an Indefinite Delivery Indefinite Quantity
contract for $8,200 for preconstruction services, with an option for construction phase
services at a Guaranteed Maximum Price (GMP) of $7 million. PBS subsequently
increased the project’s GMP to $26.3 million. The envelope improvements were
scheduled to be completed by the end of 2011.

Our audit found:

   •   PBS effectively eliminated price competition as an award factor for the
       Construction Phase Services option of this contract;
   •   PBS did not adequately establish price reasonableness for construction phase
       work;
   •   PBS inappropriately increased the maximum order limitation of the underlying
       contract; and
   •   Funding for construction phase work was improperly obligated.

To address the issues identified in the report, we recommended that the PBS
Commissioner:

   •   Review the Region 6 Multiple Award Construction Manager as Constructor
       Indefinite Delivery Indefinite Quantity contract to determine whether it should be
       modified or terminated, as its provisions include contract clauses that violate
       requirements of the Competition in Contracting Act and the Federal Acquisition
       Regulation;
   •   Take measures to ensure PBS contracting personnel follow existing procurement
       regulations and guidance to establish reasonable pricing for Recovery Act
       modernization and construction projects; and


A130102                                 2
   •   Ensure project teams have proper guidance and training to properly obligate
       funding for future construction contract actions.

The PBS Commissioner agreed with the report recommendations.

Results

The results of our implementation review indicate that the PBS Commissioner has taken
appropriate corrective actions to address the recommendations. We determined that no
further action is necessary to address our recommendations.




A130102                               3
Appendix A – Action Plan for Report Number A090172/P/R/12003




A130102                        A-1
Appendix A – Action Plan for Report Number A090172/P/R/12003 (cont.)




A130102                        A-2
Appendix A – Action Plan for Report Number A090172/P/R/12003 (cont.)




A130102                        A-3
Appendix A – Action Plan for Report Number A090172/P/R/12003 (cont.)




A130102                        A-4
Appendix A – Action Plan for Report Number A090172/P/R/12003 (cont.)




A130102                        A-5
Appendix A – Action Plan for Report Number A090172/P/R/12003 (cont.)




A130102                        A-6
Appendix A – Action Plan for Report Number A090172/P/R/12003 (cont.)




A130102                        A-7
Appendix B – Report Distribution

Commissioner, Public Buildings Service (P)

Deputy Commissioner, Public Buildings Service (PD)

PBS Chief of Staff (PB)

Regional Recovery Executive (6PC)

Acting Assistant Commissioner for Project Delivery, Office of Project Delivery (PCB)

Chief of Staff, Office of Project Delivery (PCB)

Regional Administrator (6A)

Acting Regional Commissioner, Public Buildings Service (6P)

Regional Counsel (6L)

Division Director, GAO/IG Audit Response Division (H1C)

Audit Liaison, Public Buildings Service (BCP)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy and Operations Staff (JAO)

Deputy Assistant Inspector General for Investigations (JID)

Director, Office of Internal Operations (JI-I)




A130102                                  B-1
